Wiggin and Dana LLP
One Century Tower
265 Church Street
New Haven, Connecticut
06510
www.wiggin.com

Jonathan M. Freiman
203.498.4584
203.782.2889 fax
jfreiman@wiggin.com

July 31, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, D.C. 20543
Re:

Federal Republic of Germany, et al., v. Alan Philipp, et al., No. 19-351

Dear Mr. Harris,
I represent Petitioners Federal Republic of Germany and Stiftung Preussicher Kulturbesitz in
the above-referenced matter.
In accordance with Rule 37(3)(a) of the Rules of the Supreme Court of the United States,
Petitioners hereby grant blanket consent to the filing of amicus curiae briefs in support of
either or neither party in this matter.
Sincerely,
/s/ Jonathan M. Freiman
Jonathan M. Freiman
JF:tad

C O N N E C T I C U T I N E W Y O R K I P H I L A D E L P H I A I WA S H I N G TO N , D C I PA L M B E A C H

